First Savings Bank
Credit Card Contract and Initial Disclosure Statement

M-131466

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases
APR for Cash Advances
How to Avoid Paying Interest
on Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

14.90% This APR will vary with the market based on the Prime Rate.

23.90% This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees
2% of each transaction in U.S. dollars.
Penalty Fees
Up to $25
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Paragraph
16 of this Contract.

10. When Interest is Charged: Interest will be charged if you did not pay the previous balance in full by the payment
due date. We will charge interest on the average daily balance. Average daily balance starts with the previous
balance and adds purchases and cash advances as of their post dates and fees and charges as of the transaction
dates. We subtract payments and credits as of their post dates. Then we add the daily balances and divide by the
number of days in the billing cycle. Billing cycle means the time between two billing statements. To calculate the
interest on purchases, we multiply the average daily balance by the monthly periodic rate. The monthly periodic rate
is calculated by dividing the annual percentage rate by 12 months. For purchases, the current Annual Percentage
Rate is 14.90% (Prime Rate plus 11.65%) with a 1.2417% current monthly periodic rate. For cash advances, the
current Annual Percentage Rate is 23.90% (Prime Rate plus 20.65%) with a 1.9917% periodic rate. If you are
charged interest, the charge will be no less than $1.00.
Variable Rate APR: The Prime Rate is determined by using the “Money Rates” column in the Wall Street Journal
on the first business day of each month, which is identified as “The base rate on corporate loans at large, U.S.
money center commercial banks.” If more than one “Prime Rate” is listed in that column, the largest rate listed will
be used. Your APR may increase or decrease if the Prime Rate changes.
11. Account Fees: You agree to pay us the following fees which will be billed to your account as a purchase and will
accrue interest:
a. Cash Advance Fee: You will be billed a fee of $10 or 4% of the amount of each cash advance, whichever is
greater, for each cash advance taken through an ATM, bank withdrawal or other means.
b. Late Fee: You will be billed up to $25 if your payment is not received by the payment due date.
c. Returned Payment Fee: You will be billed up to $25 if your payment is returned for any reason.
d. Foreign Transaction Fee: We charge a 2% fee for converting transactions to U.S. dollars if made in another
currency.
12. Lost or Stolen Cards: If your card is lost, stolen or being used without your permission, call us toll free at (866)
643-1256 24 hours a day. You should also write to us. Do not use the card or account after you have notified us.
You will not be responsible for paying for any unauthorized use after you notify us of the loss, theft or unauthorized
use.
13. If Card is Refused: We are not responsible and have no liability if your card or account is not accepted for a
charge. Although you may have the credit available, we may be unable to authorize credit due to system difficulties
or mistakes. If your account is over the credit limit or past due, authorization for charges should be declined.
14. Cardholder Privacy: We will send you a privacy notice annually. Your telephone calls with our representatives
may be recorded for quality and other purposes. We may use automated telephone equipment or pre-recorded
telephone calls to contact you at any number you provide to us or that we obtain, including any cellular telephone
number. You agree that we will not be responsible for the release of information to anyone who has gained
possession of you card or identification number, credit account number or social security number.
15. Calls and Text Messages to Your Cellular Phone: If you provide us with your cellular phone number, you are
providing this phone number for us, our affiliates or any third party acting on our behalf to call or text you at any
number provided. We may contact you using an auto-dialer or pre-recorded voice message. You agree that we
may use this phone number to contact you for any business purpose about your account and you agree to be
responsible for any fees or charges you incur as a result of providing this information. We may offer options for text
messages or other electronic communications that may be received or accessed from your cellular phone and you
agree that by enrolling in these services, you understand and agree to be responsible for any fees or charges you
incur as a result of this enrollment.
16. Your Billing Rights: Keep this Document for Future Use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement: If you think there is an error on your statement, write to us at:
First Savings Credit Card, PO Box 85620, Sioux Falls, SD 57118. In your letter, give us the following information:
Your name and account number; the dollar amount of the suspected error; a description of the problem. If you think
there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake. You must
contact us: 1) Within 60 days after the error appeared on your statement; and, 2) If you have enrolled in automatic
payment, at least 3 business days before the payment is scheduled if you want to stop payment on the amount
you think is wrong. You must notify us of any potential errors in writing. You may call us but if you do, we are not
required to investigate any potential errors and you may have to pay the amount in question.
When we receive your letter, we must do two things: Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have already corrected the error. Within 90 days of receiving
your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error: We cannot try to collect the amount in question
or report you as delinquent on that amount. The charge in question may remain on your statement and we may
continue to charge you interest on that amount. While you do not have to pay the amount in question, you are
responsible for the remainder of your balance. We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen: If we made a mistake: You will not have to
pay the amount in question or any interest or other fees related to that amount. If we do not believe there was a
mistake: You will have to pay the amount in question along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe. If you receive our explanation but still believe your bill is wrong, you must write

to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported you
as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if
your bill is correct.
Your rights if you are dissatisfied with your credit card purchases: If you are dissatisfied with the goods or
services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase. To use this right,
all of the following must be true: 1) The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more than $50. These limitations do
not apply if your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services. 2) You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not qualify. 3) You must not yet
have fully paid for the purchase. If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at: First Savings Credit Card, PO Box 85620, Sioux Falls, SD 57118. While we investigate,
the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
17. ARBITRATION: PLEASE READ THIS CAREFULLY. YOU AGREE THAT ANY DISPUTE WILL BE RESOLVED
BY BINDING ARBITRATION. ARBITRATION REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE
RIGHT TO A JURY AND THE RIGHT TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING.
IN ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR INSTEAD OF A JUDGE OR JURY.
ARBITRATION PROCEDURES ARE SIMPLER AND MORE LIMITED THAN COURT PROCEDURES. YOU
ALSO AGREE ANY ARBITRATION WILL BE LIMITED TO THE DISPUTE BETWEEN YOU AND US AND WILL
NOT BE PART OF A CLASS-WIDE OR CONSOLIDATED ARBITRATION PROCEEDING.
Agreement to Arbitrate: You and we agree that any dispute will be resolved by arbitration. This agreement is
governed by the Federal Arbitration Act (FAA), 9 USCS § 1 et seq. and the substantive law of the state of South
Dakota
Definitions: Arbitration is a means of having an independent third party resolve a dispute. A “dispute” is any
controversy or claim between you and us. The term dispute is to be given its broadest possible meaning and
includes, without limitation, all claims or demands (whether past, present or future, including events that occurred
prior to the opening of this account), based on any legal or equitable theory (tort, contract or otherwise), and
regardless of the type of relief sought (i.e. money, injunctive relief or declaratory relief). A dispute includes, by
way of example and without limitation, any claim based upon federal or state constitution, statute, ordinance,
regulation, or common law, and any issue concerning the validity, enforceability or scope of this arbitration
agreement. The term “you” includes any authorized user and also your heirs, guardian, personal representative
or trustee in bankruptcy. The term “us” includes our employees, officers, directors, attorneys, affiliated companies,
predecessors and assigns, as well as our marketing, servicing and collection representatives and agents.
Selection of Arbitrator: If a dispute arises, the party asserting the claim or defense must initiate arbitration, provided
you or we may first try to resolve the matter informally or through customary business methods, including collection
activity. The party filing arbitration may initiate and pursue the matter with the American Arbitration Association
(“AAA”) or JAMS, The Resolution Experts or we may agree upon a different arbitrator described below. If you claim
you have a dispute with us, but do not initiate arbitration or select an arbitrator, we may do so. You may obtain copies
of the current rules of arbitration and forms and instructions for initiating arbitration by contacting them as follows:
				

			

		

		

		

JAMS, The Resolution Experts
1920 Main Street, Suite 300
Irvine, CA 92614
Website: www.jamsadr.com
Phone: (949) 224-1810 or (800) 352-5267
The policies and procedures of the arbitrator will apply provided that they are consistent with this arbitration
agreement. To the extent the arbitrator’s rules or procedures are different than the terms of this arbitration
agreement, the terms of this arbitration agreement shall apply. If either of the arbitration firms are not available
to adjudicate the matter, or if the neither is convenient or acceptable to you, you and we may agree on one or
more neutral arbitrators. If you and we cannot agree on arbitrator(s), an arbitrator will be appointed by a court with
jurisdiction over the matter pursuant to the FAA.
Cost of Arbitration: We will pay the filing fee and any costs or fees charged by the arbitrator regardless of
whether you or we initiate the arbitration. Except where otherwise provided by applicable law, each party will be
responsible for its own attorneys’ fees and other expenses. Unless prohibited by law, the arbitrator may award
fees, costs and reasonable attorneys’ fees to the party who substantially prevails in the arbitration.
Place of Arbitration: Unless you and we agree to a different location, the arbitration will be held in the same
city as the U.S. District Court closest to your then-current mailing address. The arbitrator may decide the matter
based upon written submissions by the parties if permitted under the arbitration rules.
Waiver of Rights: You are waiving your right to a jury trial, to have a court decide your dispute, to participate in a
class action lawsuit and to certain discovery and other procedures that are available in a lawsuit. The arbitrator
has the ability to award all remedies available by statute, at law or in equity to the prevailing party. You and we
agree that the arbitrator has no authority to conduct class-wide proceedings and will be restricted to resolving the
individual disputes between you and us. If an arbitration firm or arbitrator fails or refuses to enforce the waiver of
class-wide arbitration, then the dispute will proceed in court. The validity, effect and enforceability of this waiver of
class action lawsuit and class-wide arbitration is to be determined solely by a court of competent jurisdiction and
not by the arbitration firm or arbitrator. If such court refuses to enforce the class-wide arbitration waiver, then it is
agreed the dispute will proceed in court rather than arbitration.
American Arbitration Association
335 Madison Avenue, Floor 10
New York, NY 10017-4605
Website: www.adr.org

Review of Arbitration Award: The arbitrator shall apply applicable federal and South Dakota substantive law and
the terms of your agreement with us. The arbitrator shall make written findings and the arbitrator’s award may be
filed with any court having jurisdiction. The arbitration award shall be supported by substantial evidence and must
be consistent with your agreement with us and applicable law or may be set aside by a court upon judicial review.
Other Provisions: If any portion of this arbitration agreement is subsequently deemed unenforceable, the
enforceability of any other provision of this arbitration agreement shall not be affected and the unenforceable term
shall be amended such that it is enforceable to the maximum extent permitted by law provided that if a class action
litigation or a class-wide arbitration is permitted for any reason, either party may require that the entire dispute be
heard by a Judge, sitting without a jury, under applicable court rules and procedures. This arbitration provision
shall survive: (i) termination or changes in your agreement with us, your card account, or the relationship between
you and us concerning your card account; (ii) the bankruptcy of any party; and (iii) any transfer, sale or assignment
of the card account, or any amounts owed on the card account, to any other person or entity.
Right to Opt-Out: If you do not wish to agree to arbitrate all disputes with us, you must advise us in writing at the
following address within thirty (30) days of our mailing this agreement to you at the most recent mailing address
we have for you: First Savings Credit Card, PO Box 85620, Sioux Falls, SD 57118-5620.
18. Delay in Enforcement: We can delay enforcing or fail to enforce any of our rights under this contract without
losing our right to enforce them at a later time.
19. Credit Reports: You authorize us to obtain credit reports about you for any legitimate business purpose. We may
obtain a credit report for reviewing, modifying the terms, renewing the account or collecting on the account. We
may report information about your account to credit bureaus. Late payments, missed payments, or other defaults
on your account may be reflected in your credit report. You and each authorized user agree that we may report
account information to credit reporting agencies in the names of both you and the authorized user.
20. Change in Terms of Your Credit Account: We may change any term of this contract at any time upon notice to
you as is required by law. You may have the right to reject the change in terms, depending on the type of change,
and if you do, your account will be closed and you will be able to pay off the balance under the terms in effect at
that time.
21. Law Governing this Contract: This contract is entered in the state of South Dakota where the decision to grant
credit will be made. Therefore, this contract will be governed by the laws of the state of South Dakota applicable
to contracts, and applicable federal law.
22. Severability: If any provision of this contract is invalid or unenforceable under any law, rule or regulation of any
governmental agency, federal, state or local, it shall not affect the validity or enforceability of any other provision
of this agreement.
23. Default: You will be in default of this contract if any of the following occur:
a. If you do not make a minimum payment on your account on or before the payment due date;
b. If you die or become legally incompetent;
c. If you become insolvent or bankrupt;
d. If you exceed or attempt to exceed your credit limit;
e. If you provide us with or have provided us with false or misleading information or signatures at any time;
f. If you fail to comply with this contract;
g. If you request an excessive number of replacement cards; or
h. We reasonably deem the prospect of repayment of your account to be in jeopardy for any reason.
If you are in default, we may immediately cancel your account and we do not have to give you notice of cancellation.
We can also require that you pay us the balance on your account. You agree that you will return the card(s) to us.
Even if an account is in default, you agree to pay interest and fees as defined in this contract until your balance is
paid in full. If your account is in default and you try to make charges, we can use any legal means to recover the
card(s) including listing your account in warning bulletins and offering rewards for the return of the cards. If you
resolve a default situation, we can still declare your account in default for the same or different reason at a later
time.
24. Cancellation: You may cancel your account at any time by notifying us in writing at the address on your monthly
statement and returning all cards issued on your account (cut in half). Even if your account is closed, you agree
to pay the balance on the account under the terms of this contract. We can suspend your account privileges or
cancel your account at any time, for any reason. We will notify you after we do so, unless you are in default at
that time. We will have no obligation to notify you prior to suspending your charging privileges or cancelling your
account.
25. Our property: Each card that we issue on your account must be signed by the person named on it. You agree to
surrender the card upon demand by us or our agents.
26. Refund of Initial Fees: If you cancel your account within 90 days after the contract is first mailed to you and if
you have not used your account for any charges, all fees and interest billed to your account will be credited back
to your account.
27. Collection Costs: Unless prohibited by applicable law, if we start collection proceedings to recover amounts you
owe us by reason of this contract, you agree to pay reasonable attorney’s fees and other collection costs.

28. Headings: The headings used in this contract are for the convenience of reference only and are not intended in
any way to define or describe the scope or intent of any provision of this contract.
29. State Notices:
a. California residents: A married applicant may apply for a separate account. As required by law, you are
hereby notified that negative credit reporting may be submitted to a credit reporting agency if you fail to fulfill the
terms of your credit obligations. After credit approval, each applicant shall have the right to use the account up
to the limit of the account. Each applicant may be liable for amounts extended under the plan to any joint applicant.
b. Kentucky residents: You may pay the unpaid balance of your account in whole or in part at any time.
c. Maine residents: Payment Protection provided herein is voluntary and you have the right to cancel such
protection at any time.
d. New York residents: Consumer reports may be requested in connection with the processing of the application
and any resulting account. Upon your request, we will inform you of the names and addresses of any consumer
reporting agencies which have provided us with such reports. New York residents may contact the New York
Department of Financial Services to obtain a comparative list of credit card rates, fees and grace periods. New
York Department of Financial Services 1-800-342-3736 or http://www.dfs.ny.gov/consumer/creditdebt.htm.
e. Ohio residents: The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers, and that credit reporting agencies maintain separate credit histories on each individual
upon request. The Ohio Civil Rights Commission administers compliance with this law.

